No. 20-979
INTHE

$Upreme Qtourt of tbe mlniteb $tate%
PANKAJKUMAR S. PATEL AND JYOTSNABEN P. PATEL,

v.

Petitioners,

MERRICK B. GARLAND, ATTORNEY GENERAL,

Respondent.

CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief for Former Executive Office for Immigration Review Judges as Amici
Curiae in Support of Petitioners contains 4,001 words and complies with the word
limitation established by Rule 33.l(g)(xiv) of the Rules of this Court.
Dated: September 7, 2021

